Supreme Court, U.S.
FILED

WAIVER

OCT 2 3 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Robert A. Heghmann

20-463
v.

Democratic National Committee et al.
(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
[j] Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
DNC a/k/a Democratic National Committee, Tom Perez, Frank Leone, Doris Crouse-Mays,
DCCC a/k/a Democratic Congressional Campaign Committee, Ben Rey Lujan & Elaine Luria
0 I am a member of the Bar of the, Supreme Court of the United States.
J I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar me ber.
Signature
Date.

10/21/2020

(Type or print) Name
Firm

Alexi M. Velez
0 Mr. 0 Ms. 0 Mrs. 0 Miss

Perkins Coie LLP

Address

700 Thirteenth Street NW, Suite 800

City & State
Phone

Washington, DC

(202) 654-3348

Zip
Email

20005-3960

avelez@perkinscoie.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Robert A. Heghmann, bob_heghmann@reagan.com

RECEIVED
OCT 2 6 2020
OFFICE OF THE CLERK
OF
COURT U.S.

peRKINscoie

0 +1.202.654.6200
0 +1.202.654.6211
PerkinsCoie.com

70013th Street, NW
Suite 800
Washington, O.C. 20005-3960

Alexi M. Velez

October 21, 2020

AVelez@perkinscoie.com
D. +1.202.654.3348
F. +1.202.624.9556

VIA U.S. MAIL
Scott S. Harris
Clerk, Supreme Court of the United States
Office of the Clerk
1 First Street, NE
Washington, DC 20543
Re:

Robert A. Heghmann v. Democratic National Committee et al., 20-463

Dear Mr. Harris:
Please accept for filing the enclosed Waiver of Response, which I submit on behalf of my clients
the DNC a/Ida Democratic National Committee, Tom Perez, Frank Leone, Doris Crouse-Mays,
DCCC a/k/a Democratic Congressional Campaign Committee, Ben Rey Lujan & Elaine Luria in
the above-referenced matter.
Please contact me at the information above should you have any questions or concerns.
Very truly yours,

er
i
Alex M. Velf
AMV
cc:

Robert A. Heghmann
P.O. Box 6342
Virginia Beach, VA 23456
bob heghmann@reagan.com

Enclosure: 1

Perkins Coie LIP

RECEIVED
OCT 2 6 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

